HHS/OIG-Audit -"Review of Medicaid Outpatient Psychiatric Services Provided By Hillside Hospital, North Shore Long Island Jewish Health System For Fiscal Year Ended September 30, 1999,"(A-02-00-01023)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Outpatient Psychiatric Services Provided By Hillside Hospital, North Shore Long Island Jewish
Health System For Fiscal Year Ended September 30, 1999," (A-02-00-01023)
August 7, 2001
Complete
Text of Report is available in PDF format (993k). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
The objective of our review was to determine whether psychiatric services rendered on an outpatient basis were billed
for and reimbursed in accordance with Medicaid requirements.  Generally, we found that the Hospital received reimbursement
for claims that were reasonable, necessary, and adequately supported by medical records.  However, our analysis showed
that $1,720 (Federal share $860) of the sampled claims did not meet Medicaid criteria for reimbursement.  Claims found
unallowable were for services with insufficient treatment plans or not properly supported by medical record documentation.